n10=®5S1
IN THE
SUPREME COURT OF THE UNITED STATES

Kedrio Summerville

— PETITIONER

0 ® r A;

(Your Name)
vs.

■r!

1
_.j

United States of America
2- RESPONDENTS
ON PETITION FOR A WRIT OF CERTIORARI TO

filed
MV 2 0 2020

___________ Fourth Circuit of Apppals______________________
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Kedrio Summerville
(Your Name)
FCI Butner II,Po Box 1500
(Address)
Butner, NC 27509
(City, State, Zip Code)
NA
z'

(Phone Number)

1

QUESTION(S) PRESENTED

The counsel conceded dtiring sentencing that "it was his
fault that Mr. Summerville was faced with the increased penalty
because he failed to investigate and review the files before
he advised Summerville to accept a 10 yr to life plea".

The

Counsel asked the court to withdraw the plea and the court
denied it. Therefore, was the counsel ineffective during the
critical stages and should the petitioner be allowed to withdraw
the plea?

The petitioner filed a 2255 and raised the numerous constitu­
tional claims and ineffective claims, in which the Court immediately
Granted a Evidentiary Hearing and transported the petitioner to
the Courts jurisdiction. However, the petitioner had a new
counsel who had not prafcKLfed; criminal law for years and instead
did real estate law.. On the morning of the Evidentiary hearing,
with all parties there, the new counsel moved for continuance and
the court granted it. But while the petitioner was in the holding
facility, the new counsel "moved to strike all of the petitioners
original claims and filed a new claim outside of the 1 yr timeframe and then even requested that no evidentiary hearing be
granted all in the same breadth". Therefore, the Court denied the
2255 and the Evidentiary Hearing. Was the post-conviction counsel
ineffective?

i

LIST OF PARTIES

[ 3 All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
US v Summerville, 2:15cr100, EDVA
US v Summerville, 18-7182 , 4th Cir 203:8-2020

ii

m

f

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4-5

REASONS FOR GRANTING THE WRIT

61-10

CONCLUSION

11

INDEX TO APPENDICES
APPENDIX A- 4th Cir. of Appeals, COA/Appeal Denial & Filing

APPENDIX B- E.D.VA District Court 2255 filing(s) & Denial

APPENDIX C ~ Virginia Bar Complaint

APPENDIX D- Original 2255 filing by Summerville, pro se

APPENDIX E- na
APPENDIX F - na

iii

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

Brown v Brown, 17-887 (7th Cir. 2017)
Glover v US,

531 US 198 (2001)

10
9

Hill v Lockhart, 474 US 52 (1985)

9

Lee v US, 137 S.ct 1958 (2017)

9

Mckoy v Louisiana, 138 S.Ct 1500 (2018)

9

Strickland v Washington, 466 US 668 (1984)

Passim

US v Cronic, 466 US 648 (1984)

7

US v Helding, 18-3270 (7th Cir. 2020)

8

US v Sterling, 18-2974 (8th Cir. 2019)

8

US v Summerville, 2:15CR100, 18-7182 (4th 2020)

Passim

STATUTES AND RULES
Sixth Amendment

Passim

OTHER
Weaver v Massachusetts, 137 S,Ct 1899 (2017)
Wright v FBOP, 451 F.3d 1231 (11th Cir. 2006)
iv

Passim
Passim

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ^ For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
[x] reported at US v Summerville. 18-7182
; or,
[ ] has been designated for publication but is not yet reported; or,
[x3 is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

A

b

[ ^ reported at US v Summervi 11 ^ 2:1 7-cv~0.Q.2-05—^ or,
[ ] has been designated for publication but is not yet reported; or,
[xl is unpublished.
[ ] For cases from state courts:

NA

The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

to

JURISDICTION
[x] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was Sept:. 1 f 20 2 0
[x] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including_______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:

NA

The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
----------------------------------, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
US Constitution, Sixth Amendment, Right to Counsel
and Due Process

..In all criminal prosecutions, the accussed shall enjoy the
the [right] to have the assistance of counsel for his defense

3

STATEMENT OF THE CASE
There are 2 different types of counsel :
1. Effective Counsel
or
2. Ineffective Counsel

This court has recognized both of the above and recently shown
and redefined the Strickland Prejudice in the Weaver v Massachusetts. (137 S.Ct 1899, 2017). In this case, Mr. Summerville had
2 "very bad and ineffective counselors that led to a wrongful
conviction, increased mandatory minimums and increased sentencing
in which the counsel ( William L. Taliaferro) had to admit his
own ineffectiveness. But the Court would not allow the petitioner
to withdraw his guilty plea"
After the sentencing, and appeal, Mr. Summerville filed a timely
2255, in which he showed that the plea/sentencing counsel was
ineffective and that he is entitled to Vacate the plea. The Court
'Granted-tJje immediate', ‘Evidentiary Hearing, which was to be held on
Jan. 30,2018 (2:15cr100, Doc 58). At the Hearing, the New Counsel,
Trey Reliefer, a real estate lawyer, filed a motion for continuace
(See App'x B, Doc 58), without first consultant the petitioner.
But, instead of continuing to learn about the case, the new counsel
filed a motion to strike all of Sumemrvilles meritable 2255 claims
and replaced them with a out-of-time and procedurally barred frivolous claim. (See App'x B, Doc 61). The government swiftly filed &
4

moved to dismiss the claims and agreed to strike the original
2255 claims and agreed that no evidentiary hearing should be
held. (Doci 64 in App'x B) All of this took place without 1st
consulting with Mr. Summerville.
All of a sudden while in the holding facility and transit,
the petitioner recieved a denial of the 2255 (DOC 66,App'x B)
and denial of the "GOA". The petitioner filed a COA Request
and Appeal, which was just denied on Sept. 1, 2020. In between
the COA filing, the petitioner also filed a complaint with the
Virginia Bar about the counselors actions and inactions, in
which no.

action was taken against either for their actions.

The petitioner now files the herein Writ of Certiorari and
request that the Court Grants Oral Argument, assigns Counsel,
and Issues a Amicus Curiae

request and Reverses the District

and Appeal Courts Orders with instructions to Grant the With­
drawal of the plea and either proceed to trial or renegoiate
the plea agreement with the correct information and lower
mandatory

^penalty, of- 5 ft©', 40 .instead' oti 10" to life.*

5

REASONS FOR GRANTING THE PETITION
..According to Wright v FBOP, 451 F.3d 1231 (11th Cir. 2006),the
court held that a competent , first class lawyer can tie a case
in knots not only for the jury but for the judge as well..It is
"able lawyers" , [not the incompetent ones , who should not be
be permitted in the courtroom since they are the ones who are
doing all the damage]. (See Art Buchwald, Bad Lawyers are very
good for the US Justice systems, 64 A.B.A.J 328 (1978)

Justice O'Connor identified 3 categories of cases in Strickland
104 S.Ct at 2067. The first is "actual or constructive denial of
the assistance of counsel altogether". In this case , the issue
is not a factor here. .iJThe^second situation involves those cases
in which counsel has an actual conflict of interest. Well

this

situation arose in the 2255 when the post conviction counsel did
in fact strike all of the petitioner's meritable claims without
Mr. Summervilles consent and then also requested that the Court
deny (.or not hold a evidentiary hearing, although that was the
sole reason [he] was even there), again it was not consented to
by Sumemrville.

II

[This] ij.Court-.haSv'held that "prejudice is presumed.

The third, the one that most often arises and that Strickland
concerned, involves claims of actual ineffective representation.
Well, this is the case here with the original plea/sentencing
counsel &

the 2255 new counsel. Both were ineffective.:
6

The Sixth Amendment "guarantee's" all criminally charged defen
-dants the "assistance of counsel", in which this Court has
defined as the "effective assistance of counsel". (US v Cronic
466 US 648 (1984) ; Strickland v Washington, 466 US 668,(1984).
Strickland governs the instant petition, but in the form of the
Weaver v Massachusetts,. 137 S.Ct 1899 (201 7) j.
As this Court is aware, obtaining post-conviction relief based
on a attorney's ineffective and performance is notoriously diffi
-cult. But this court just ruled in Weaver, that the courts
should recognize an attorney's deficient performance is prejudi^
cial when the counsel's errors rendered the process fundamentally
unfair even if those errors did not have a probable effect on
the outcome.Well in this case it clearly did, not once,but 3 times
and at plea, sentencing and post-conviction stages. In fact,
the orginal lawyer (Taliaferro) admitted that he failed to inves­
tigate prior to the advisment of the plea

and this concession

came during the sentencing. But all of a sudden, when

Summerville

filed his 2255, the counsel reversed course and did an about
face and stated, I did investigate and when I did I saw that
the drug weight was incorrect and informed the government

and the

government removed "some" of the drug weight. But the problem is
that the "plea was based exclusively from this now removed information and because of the

removal,should have also vacated the

10 yr to life plea". But instead the government and counsel
7

stipulated to a drug weight and then he argued for the lesser
sentence, which the court denied. But all of this could have
been avoided if the counsel had investigated prior to the plea
and prior to rendering the bad legal advice that increased the
floor and ceiling based upon collateral and no-existence ghost
dope findings. ( US v Helding, 18-3270 (7th Cir. 2020)...the
district courtaacts within its discretion

when it credits Cl's

statements about drug quantity. But when a defendant objects,
the evidence supporting that quantity must be found reliable.
While that step may prove modest, it needs to be taken, lest a
defendant face the risk of being sentenced on the basis of
unreliable information and the statements here fell short of that
threshold, so we reverse and remand for resentencing)
The petitioner is entitled to be sentenced on reliable and
factually true information. But this did not happen and none of
the parties seriously contested this when raised by the petitioner.
In fact, the court removed "some of the inaccurate information
but left a dramatic amount, and the leadership role enhancement
that was premised from the same inaccurate information", which
shows that the [sentence] and conviction are both constitutionally
infirm and must be Vacated. Therefore, the plea/sentencing counsel
was ineffective and the Court should have vacated the pl|a and
conviction and ordered the government to begin anew, in which
now this Court should do what the district and appeal court failed
to do.(US v Sterling. 18-2974 (8th Cir. 2019)
8

By following this Courts own jurisprudence of Weaver,supra
and Mckoy v Louisiana,138 S.Ct 1500 (2018) and Glover v US
531 US 198 (2001), this court will not have a problem with
finding that the counsel was ineffective and was the "cause"
of the increased penalty and charges being applied and that
the petitioner was in fact "prejudiced by the counsel's
woeful performance."

\

Therefore, the petitioner request that the court reverses
the 4th Circuit of Appeal and E.D.VA, Norfolk decisions and
Orders the parties to Vacate

the pleq and begin- anew or to

set the matter for trial, seeing that the petitioner was stripFe
ped of his constitutional right to proceed to trial when the
counsel provided the inaccurate information to plea without
1st investigating. (Hill v Lockhart 474 US 52 (1985) and
Lee v US 137 S.Ct 1958 (2017)

Reason for Cert. Granting No. 2
This court has not truly resolved the "post-conviction ineffectiveuelaims", but this case is the prime case to do such and
to set the appropriate course. Here, Mr. Summerville did file
the timely 2255, did get the evidentiary hearing granted , did
show that he was wrongfully convicted and wrongfully enhanced
from inaccurate information that was proven to be inaccurate,but
whennthe day of recourse came, Evidentiary Hearing date, the
new counsel moved to continue the case and then afterwards moved
9

to strike and undo everything Mr. Summerville had done to
get back into court and in its place, filed a frivoulous
supplemental filing and in the same breadth moved to strike
the meritable claims and to not hold the evidentiary hearing
without even consulting the petitioner. What compentent
counsel would do this.Instead of perfecting the pro se claims
the counsel cancelled them without futher notice. Of course,
the government bounced on the opportunity to dismiss the
claims, not hold the hearing and then even showed the counsel
why he was time barred from raising these new claims, which
I

came outside of the 1 yr window. (See App'x B)The court granted
the new counsel

and governments request and denial the peti­

tioner in all aspects and without the hearing .
No where in the history of the courts has such "bad lawyering"
every existed and the cause and prejudice prongs are met.But
this courtihas yet to resolve

the post-conviction ineffective

claims and this' case presents the prime opportunity to do so
to set the precedent on how to conduct review of such issues
and to ensure the fairness and integrity and public's confidence
are all kept and the lawyers are held at the higher standards.
Therefor e, the Court should Grant Cert on this issue, and
appoint counsel and issue a Amicus briefing on this issue.
Brown v Brown, 17-887 , 847 F.3d 502 (7th Cir. 2017)..the court
of appeals held that defendant was entitled to a hearing to
determine if his post-conviction counsel was ineffective, so that
the court can consider the trial counsels ineffectiveness as well.)
10

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Mr. Kedirio Summerville

Date:

Nov:!6

. 2020

11

